Audit Report

Stop Violence Against Women Formula Grant Awarded to the State of Texas
Office of the Governor, Criminal Justice Division

Audit Report GR-80-05-008


August 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, completed an audit of STOP Violence Against Women Formula Grant Number 2004-WF-AX-0045, awarded by the U.S. Department of Justice, Office on Violence Against Women (OVW), to the State of Texas, Office of the Governor, Criminal Justice Division (Texas Criminal Justice Division or TCJD).  The OVW administers the Department of Justices formula and discretionary grant programs authorized by the Violence Against Women Act of 1994.  The program assists the nations criminal justice system in responding to the needs and concerns of women who have been, or potentially could be, victimized by violence.  

The STOP (Services * Training * Officers * Prosecutors) Violence Against Women Formula Grant Program (STOP Program) promotes a coordinated, multidisciplinary approach to improving the criminal justice systems response to violent crimes against women.  The STOP Program encourages the development and strengthening of effective law enforcement and prosecution strategies to address violent crimes against women and the development and strengthening of victim services in cases involving violent crimes against women.  

On May 20, 2004, the OVW awarded the TCJD a $6,793,000 STOP Program grant.  The grant award was April 1, 2004, through March 31, 2006.  Of the $6,793,000, the TCJD budgeted $358,898, or approximately 5.3 percent, for administrative oversight of the grant award.1
We tested the TCJDs compliance with five essential grant conditions  reporting, grant drawdowns, matching program costs, reimbursements to subgrantees, and monitoring of subrecipients.  We found weaknesses in each of the five areas tested.  We also tested the accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the grant.  As a result of the deficiencies identified below, which are based on the transactions sampled, we question $106,452 in grant fund expenditures.2    In addition, $348,384 in excess funds drawn down and $852,650 in program matching costs were identified as unsupported.  


Financial Status and Program Reporting

The TCJD submitted the June 30, 2004, and December 31, 2004, Financial Status Reports (FSR) three and nine days late, respectively.  

	The FSRs submitted to OJP did not agree with the TCJDs internal FSR accounting reports used to prepare the federal FSRs.  

	The TCJD was unable to provide two required subgrantee quarterly expenditure reports that are used to prepare the federal FSRs.  As a result, we were unable to rely on the accuracy of the TCJD internal FSRs.  

	The TCJD was not required to submit the annual Program Report due to OVWs inoperable automated reporting system.  

Grant Drawdowns
The TCJDs drawdowns exceeded expenditures reported by $348,384 as of March 31, 2005. 


Matching Program Costs
Funds provided for a program match must be used to support a federally funded project and must be in addition to, and therefore supplement, funds that would otherwise be made available for the stated program purpose.  The two types of match are:  (1) cash, which includes cash spent for project-related costs, and (2) in-kind, which includes, but is not limited to, the valuation of in-kind services.  In-kind is the value of something received or provided.  

As of March 31, 2005, $550,589 in cash matching contributions and $302,061 for in-kind matching were reported as expended.  The TCJD did not maintain documentation on site to support the shared program costs among 84 subawards.  Overall, the TCJD was not able to provide us with evidence supporting they maintained records that clearly show the source, the amount, and the timing of all matching contributions totaling $852,650. 


Reimbursements to Subrecipients
Overall, the TCJD lacked adequate controls to ensure that grant funds were properly accounted for.  


The TCJD disbursed federal funds to subrecipients without supporting documentation for expenses incurred.  As a result, we question $2,195,627 in federal grant funds reimbursed as of March 31, 2005.  
 
	In addition to the issue above, we provided the TCJD with an opportunity to supply us with supporting documentation for the transactions included in our sample.  However, after conducting our analysis, many expenditures were found to be inadequately supported.
  
	Nonconforming costs, such as car allowances, were charged to the federal grant for two of the eight subgrantees sampled totaling $8,175.  

	The TCJDs Grant Tracking System did not specifically identify equipment purchased with federal funds.  

The lack of policy associated with processing transactions for reimbursements to subrecipients contributed to the inadequate management of grant funds.  Based on our sample of transactions, we found expenses in the amount of $106,452 charged to the grant that were unsupported, nonconforming, and questionable.  The $106,452 in unsupported or unallowable costs is a portion of the $2,195,627 in questioned costs previously mentioned.  


Monitoring of Subrecipients
The TCJDs monitoring activities include reviews that are conducted across the state of Texas (site reviews), as well as in-house (desk reviews).  Other routine monitoring activities include informal visits to subgrantees offices (subgrantee contact visits), the analysis of new subgrantees overall compliance with requirements (first-year subgrantee analysis) and the provision of technical assistance to subgrantees regarding grant requirements.  

Of the 72 subrecipients receiving funds, two received first-year technical assistance and one received an on-site review.  The TCJD does not have procedures in place to monitor subrecipient compliance with federal cash advances.  


Recommendations
Our report contains six recommendations to address the preceding issues.  They are discussed in detail in the Findings and Recommendations section of the report.  We discussed the results of our audit with the TCJD and included their comments in the report, as applicable. 

Our audit objectives, scope, and methodology are in Appendix I.  A summary schedule of grant budget amounts and related costs by cost category are in Appendix II.  

  



Footnotes

According to the FY 2004 STOP Violence Against Women Formula Grant Solicitation, grantees may use up to 10 percent of the total award amount for grant administration, including statewide review, processing, monitoring, progress and financial report review, technical assistance, grant adjustments, accounting, auditing, and fund disbursement to subgrantees.  

	The Inspector General Act of 1978, as amended, contains reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and definitions of questioned costs and funds to better use.